                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 418-5110
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General


                                         MEMORANDUM


     TO:             Gary Gensler
                     Chairman

     FROM:           A. Roy Lavik
                     Inspector General

     DATE:           November 16, 2009

     SUBJECT:        Inspector General’s Assessment Of The Most Serious Management
                     Challenges Facing the Commodity Futures Trading Commission (CFTC)

     Introduction

    The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
    performance information in a more meaningful and useful format for Congress, the President,
    and the public, through publication of the Performance and Accountability Report (PAR). The
    RCA requires the Inspector General to summarize the “most serious” management and
    performance challenges facing the Agency and to assess the Agency’s progress in addressing
    those challenges, all for inclusion in the PAR. This memorandum fulfills our duties under the
    RCA.

    In order to identify and describe the most serious management challenges, as well as the
    Agency’s progress in addressing them, we have relied on data contained in the CFTC financial
    statement audit and PAR, as well as our knowledge of industry trends and CFTC operations.
    Since Congress left the determination and threshold of what constitutes a most serious challenge
    to the discretion of the Inspector General, we applied the following definition in preparing this
    statement:

            Serious management challenges are mission critical areas or programs that have the
            potential for a perennial weakness or vulnerability that, without substantial management
            attention, would seriously impact Agency operations or strategic goals.
This memorandum summarizes the results of the CFTC’s current financial statement audit,
describes the Agency’s progress on last year’s management challenges, and finally discusses the
most serious management challenges that we have identified:

               1.      Harmonization of CFTC and Securities and Exchange Commission
                       (SEC) Overlapping Regulations;
               2.     CFTC’s Regulatory Model for the Swaps Derivatives Market; and,
               3.     CFTC’s Regulatory Responsibilities over the Potential Carbon Emission
                      Trading Markets.

CFTC Financial Statement Audit Results

In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector General.
The results of the fiscal year 2009 financial statement audit are discussed in the PAR, and the
financial statement audit resulted in an unqualified audit opinion.

CFTC’s Progress on Last Year’s Challenges

Last year we identified the two most serious management challenges as: Modernization of
Electronic Market Surveillance and the Efficient Acquisition and Integration of Skilled Human
Capital to address expanding Congressional mandates. During fiscal year 2009 the Agency has
addressed both issues. Over the past year the Agency has upgraded its servers and trade analysis
systems to modernize and improve its surveillance of exchange traded futures and options
contracts. As the Agency acquires additional regulatory responsibilities, we hope that the Agency
is able to scale up its market surveillance capabilities. Since the start of FY 2009 the Agency has
increased its staff by 100 new employees (a 21% increase). This dramatic influx of manpower
should assist the Agency in meeting its expanding regulatory mission. The OIG is conducting a
review of the recent recruitment in order to evaluate the effect of the CT pay system on
recruitment and retention, which review will examine the skill sets of this new talent pool.

Most Serious Management Challenges

Three issues likely to challenge the CFTC in the coming year are: Congressional demand that the
CFTC and SEC harmonize their regulation of overlapping financial products; a decision on the
CFTC’s regulatory model for the swaps derivatives market; and expansion of CFTC’s regulatory
responsibilities over the potential carbon emission trading markets.

Harmonization of CFTC and SEC Overlapping Regulations

On June 17, 2009, the White House released a White Paper on Financial Regulatory Reform
calling on the SEC and CFTC to “make recommendations to Congress for changes to statutes




                                                2
and regulations that would harmonize regulation of futures and securities.” 1 Specifically, the
White House recommended “that the CFTC and the SEC complete a report to Congress by Sept.
30, 2009, that identifies all existing conflicts in statutes and regulations with respect to similar
types of financial instruments and either explains why those differences are essential to achieve
underlying policy objectives with respect to investor protection, market integrity, and price
transparency or makes recommendations for changes to statutes and regulations that would
eliminate the differences.” 2

In September 2009, the CFTC and SEC collaborated on an initial effort to begin implementation
of the White House mandate, and released the required joint report on October 16, 2009. This
effort identified numerous areas for operational coordination that will require substantial analysis
and may yield a more efficient regulatory structure over the financial markets. The OIG looks
forward to the resulting regulatory model that will define the future mission of this Agency.

CFTC’s Regulatory Model for the Swaps Derivatives Market and the Need for Additional
Human Capital

Congressional deliberations over how the CFTC will regulate the swaps markets will determine
the Agency’s need for additional human capital to regulate these markets. The Congressional
Budget Office estimates that up to 235 employees 3 may be needed by fiscal year 2011 to
regulate central counterparty clearing of swaps. In our estimation, this would require a 40%
increase over existing staffing levels--a considerable challenge for any organization. We believe
both the intricacies of any forthcoming derivatives regulation and the acquisition of human
capital to carry out the regulatory tasks will challenge the CFTC in the coming year.

CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets

Congress may soon move forward on new legislation to regulate carbon emissions trading. A
recent Congressional Budget Office study projected that trading in carbon offsets could be a $60
billion market in 2012. 4 Presuming Congress assigns regulatory responsibility to the CFTC, the
CFTC will require additional staffing increases in order to absorb this additional regulatory
responsibility. We believe the increased responsibility will challenge the CFTC in the coming
year.

Conclusion

The past year has continued to witness dramatic movement in the financial markets and the
commodity futures markets. While the Agency has addressed the most serious management
challenges identified last year, Congressional initiatives to overhaul regulation of over-the-
1
  Financial Regulatory Reform: A New Foundation, p.14
http://www.financialstability.gov/docs/regs/FinalReport_web.pdf
2
  Id., pg. 50.
3
  H.R. 3795 Derivative Markets Transparency and Accountability Act of 2009 Congressional Budget Office Cost
Estimate November 6, 2009 Page 3. http://www.cbo.gov/ftpdocs/107xx/doc10703/hr3795hfs.pdf.
4
  H.R. 2454 American Clean Energy and Security Act of 2009 Congressional Budget Office Cost Estimate June 5,
2009 Page 11 http://www.cbo.gov/ftpdocs/102xx/doc10262/hr2454.pdf



                                                      3
counter derivatives and the carbon markets may provide a new set of challenges and greatly
expand the work of the Agency. Our concern is that Congress adequately equip the Agency with
sufficient resources to carry out all additional responsibilities efficiently and effectively, and that
the Agency implement any new authority with skill and speed. During the coming year we will
monitor the Agency’s progress addressing the most serious management concerns, while
continuing to identify new challenges. The OIG takes its mission and authority seriously, and
remains committed to promoting integrity, accountability and transparency at the CFTC.




                                                   4
